                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General



                                                                    AUG 15 2011



MEMORANDUM

TO :           AlLM/OPS/RLC - Steven G. Hartmft/l

FROM:          OlG - Harold W. Geisel       ~Y/
SUBJECT:       Report on Audit ofthe Project To Replace Diplomatic Facility
               Telephone Systems at the Department ofState With Funds Provided by
               the American Recovery and Reinvestment Act (AUDICG-11-32)

Attached for your information is a copy of the subject report. The Office of Inspector General
(OlG) has incorporated your comments as appropriate within the body of the report and included
them in their entirety as Appendix D.

OlG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits,
at (202) 663 -0372 or Richard Astor, Director, Division of Contracts and Grants, at (703) 284­
2601 or by email at astorr@state.gov.

Attachment: As stated.

cc: AlLM - (b) (6)
    AlLMIA QM - iiiiilii~1IIIIIII1IIIIIII
                   (b) (6)
    DS/MGT/PPD (b) (6)
    TRMlBMP/SPO/SPD - (b) (6)
    M/PRT­ (b) (6)
                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General


                                                                     AUG 	1 5 2011



MEMORANDUM

TO: 	          lRM/DClO/BMP - Janice J.~;d.:£7      A




FROM: 	       OlG - Harold W. Geisel   r~ ¥-J
SUBJECT: 	    Report on Audit ofthe Project To Replace Diplomatic Facility
              Telephone Systems at the Department ofState With Fund~ Provided by
              the American Recovery and Reinvestment Act (AUD/CG-Il-32)

The subject report is attached for your review and action. As the action office for
Recommendation I, please provide your response to the report and information on actions taken
or planned for the recommendation within 30 days of the date of this memorandum. Actions
taken or planned are subject to followup and reporting in accordance with the attached 

compliance response information. 


The Office ofInspector General (OlG) incorporated your comments as appropriate within the 

body of the report and included them in their entirety as Appendix B. 


OlG appreciates the cooperation and assistance provided by your staff during this audit. If you 

have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits, 

at (202) 663-0372 or Richard Astor, Director, Division of Contracts and Grants, at (703) 284 ­
2601 or by email at astorr@state.gov. 


Attachments: As stated. 


cc: 	AlLM/OPS/RLC­ (b) (6)
    DSIMGT/PPD ­ (b) (6)
    IRM/BMP/SPO/SPD ­ (b) (6)
    lRM/BMP/SPO/SPD - (b) (6)
    MlPRI­ (b) (6)
                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General



                                                                      AUG 	 1 5 2011


MEMORANDUM

TO:            DS/MGT/PPD - James E. Weston

FROM:          OIG - Harold W. Geisel   ~         h
SUBJECT: 	     Report on Audit ofthe Project To Replace Diplomatic Facility
               Telephone Systems at the Department 0/ State With Funds Provided by
               the American Recovery and Reinvestment Act (AUD/CG-11 -32)

Attached for your information is a copy of the subject report. The Office ofInspector General
(OIG) has incorporated your comments as appropriate within the body of the report and included
them in their entirety as Appendix C.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits,
at (202) 663-0372 or Richard Astor, Dircctor, Division of Contracts and Grants, at (703) 284­
2601 or by email at astorr@state.gov.

Attachment: As stated.

cc: 	 AlLM/OPS/RLC ­ (b) (6)
      DS/MGT/PPD ­ (b) (6)
      DS/MGT/PPD ­ (b) (6)
                             (b) (6)
             (b) (6)
                                         UNCLASSIFIED




                     United States Department of State 

                  and the Broadcasting Board of Governors

                         Office of Inspector General




                                       Office of Audits 



 Audit of the Project To Replace Diplomatic Facility Telephone 

Systems at the Department of State With Funds Provided by the 

           American Recovery and Reinvestment Act 



                                        AUD/CG-11-32 

                                         August 2011





                                          Important Notice

This report is intended solely for the official use of the Department of State or the Broadcasting
Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the
Department of State or the Broadcasting Board of Governors, by them or by other agencies or
organizations, without prior authorization by the Inspector General. Public availability of the
document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552.
Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                         UNCLASSIFIED

                                                           United States Departme nt of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General




                                         PREFACE


     This report was prepared by the Office oflnspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended . It is one of a series of audit, inspection, investigative, and special reports prepared by
01G periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment orthe strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General
                                     UNCLASSIFIED


                                        Acronyms

Department     Department of State
DS             Bureau of Diplomatic Security
FAH            Foreign Affairs Handbook
IPA            independent public accountant
IRM            Bureau of Information Resource Management
IRM/FTP        Bureau of Information Resource Management/
                 Foreign Post Telephone Branch
IT             information technology
OIG            Office of Inspector General
Recovery Act   American Recovery and Reinvestment Act of 2009




                                     UNCLASSIFIED

                                                            UNCLASSIFIED


                                                     TABLE OF CONTENTS

 
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Objective ..............................................................................................................................3 


Audit Results .......................................................................................................................3 


           Recovery Act Funds Were Managed Effectively ....................................................3 

           Funds Need To Be Put to Better Use in Respect to Shipping..................................3 


Appendices 

      A. Scope and Methodology.....................................................................................6 

      B. Bureau of Information Resource Management Response ..................................9 

      C. Bureau of Diplomatic Security Response ........................................................10 

      D. Bureau of Administration Response ................................................................13 


Major Contributors to This Report .................................................................................. 14 





                                                            UNCLASSIFIED

                                             UNCLASSIFIED


                                         Executive Summary
        The American Recovery and Reinvestment Act of 20091 (Recovery Act) included
$600 million in funding for infrastructure improvements at the Department of State (Department)
and established new reporting requirements related to the awarding and use of Recovery Act
funds to promote transparency and accountability. The Recovery Act also included mandates for
the Office of Inspector General (OIG) to provide oversight and audits of programs, grants, and
activities funded by the Act.

        This audit is one of two audits conducted by OIG to examine Recovery Act-funded
investments in the Department’s information technology (IT) platform. This report presents the
results of a project to replace telephone systems at three diplomatic posts—Embassies Bangkok
(Thailand), Brussels (Belgium), and Vienna (Austria)—that spent $10 million in Recovery Act
funds as part of a total $33.5 million investment in the Department’s IT platform. This particular
project was part of the Department’s ongoing program efforts to replace telephone systems that
are 13 to 15 years old and were causing increased costs for required maintenance.

        The objective of this audit was to determine whether the Department’s project for
replacing telephone systems met its planned objectives and complied with Recovery Act
requirements while ensuring that Recovery Act funds were used only for their intended purposes.

       OIG found that the Bureau of Information Resource Management (IRM) administered
Recovery Act funds effectively to meet program goals and requirements and used the funds for
authorized purposes. The telephone system installation equipment was appropriately procured,
shipped, and installed as planned or was on schedule to be installed. However, OIG identified
funds of over $650,000 that could be put to better use in respect to the shipping of unclassified or
nonsensitive telephone equipment to six posts.2

        The cost-savings measure OIG identified related to shipping most telephone installation
system equipment to overseas posts by commercial means rather than shipping all of it by
Diplomatic Courier Service, which costs more. Using IRM data, OIG estimated that for the six
posts that received new telephone system installation equipment in FY 2010, $651,124 could
have been saved by shipping unclassified or nonsensitive items commercially rather than by
Diplomatic Courier Service. Specifically, between 62 and 83 percent of the total weight of
telephone items could have been shipped commercially, and the overall shipping costs would
have been reduced by 45 to 56 percent.

       During the March 2011 exit conference, IRM officials stated that officials from the
Bureau of Diplomatic Security (DS) had proposed developing, for the telephone installation
contractor, guidelines for the most economical methods of shipping telephone equipment that
would still be in compliance with Department regulations.


1
 Pub. L. No. 111-5. 

2
 Embassies Bangkok (Thailand), Beirut (Lebanon), Bogota (Columbia), Brussels (Belgium), Karachi (Pakistan), 

and Vienna (Austria).

                                                       1

                                             UNCLASSIFIED
                                        UNCLASSIFIED

       OIG made one recommendation for IRM and DS to work with the Bureau of
Administration (A Bureau) to find the most cost-effective commercial means of shipping
unclassified or nonsensitive telephone equipment.

        In response to the draft report, IRM and the A Bureau concurred with the
recommendation but DS did not. (The responses are in Appendices B, D, and C, respectively.)
Specifically, DS expressed concerns about shipping replacement telephone systems by
commercial means, stating that it is “not a prudent security measure for protecting SBU
[Sensitive But Unclassified] phone systems that may end up in a classified processing area.”

      Based on the responses, OIG considers the recommendation unresolved. This
recommendation can be resolved when OIG receives and accepts documentation from DS
showing that it has developed commercial means for shipping the telephone equipment as OIG
recommended.

                                         Background
       On February 17, 2009, President Barack Obama signed the American Recovery and
Reinvestment Act of 2009, which provided $787 billion for Tax Relief ($288 billion), State and
Local Fiscal Relief ($144 billion), Federal Social Programs ($244 billion), and Infrastructure
($111 billion).

       As part of the $111 billion in infrastructure funding, the Department received and is
overseeing $600 million that was invested in three primary areas: Diplomatic and Consular
Programs, Capital Investment Fund, and the International Boundary and Water Commission.
The $600 million also includes a $38 million fund transfer from the Department to the U.S.
Agency for International Development. The IT platform, within the Capital Investment Fund,
represents $33.5 million, as shown in Table 1.

Table 1. Program/Activity and Recovery Act Funds
                                                              Amount
                      Program/Activity                        (in 000s)
 Diplomatic and Consular Programs                                    $ 90,000
     Hard Skills Training Center                                     $ 70,000
     Passport Facilities                                             $ 15,000
     National Foreign Affairs Training Center                        $ 5,000
 Capital Investment Fund                                             $290,000
     Data Center                                                     $120,000
     IT Platform                                                     $ 33,500
     Cyber Security                                                  $ 98,500
 Transfer to U.S. Agency for International Development               $ 38,000
 International Boundary and Water Commission
 Construction                                                       $220,000
                                                   Total            $600,000
Source: Department of State.



                                                2

                                        UNCLASSIFIED
                                       UNCLASSIFIED


        The Department’s project to replace telephone systems at selected diplomatic facilities
included $10 million in Recovery Act funds as part of a total of $33.5 million dedicated to
improving the Department’s IT platform. As described in the Department of State’s Recovery
Act External Program Plan, dated July 10, 2009, this project will replace antiquated telephone
systems using Recovery Act funds at a number of diplomatic posts and provide voicemail, call
accounting, threat recording, and remote maintenance capability. The current systems are 13 to
15 years old and have been expanded to maximum capacity. In addition, costs for the systems
have begun to increase for required maintenance performed by qualified Department telephone
technicians. These telephone systems are vital for post staff to meet mission objectives, and
replacing the systems would bring the Department closer to achieving the industry standard life
cycle of 10 years.

                                          Objective
        The objective of the audit was to determine whether the Department’s project for
replacing telephone systems at three diplomatic posts met its planned objectives and complied
with Recovery Act requirements while ensuring that Recovery Act funds were used only for their
intended purposes.

                                        Audit Results

Recovery Act Funds Were Managed Effectively
       OIG found that IRM had achieved expected project outcomes and had complied with
Recovery Act requirements. To facilitate the replacement and upgrading of telephone systems,
the Department transferred funds of $10 million to the General Services Administration, which
awarded a firm-fixed-price contract to a private sector company to perform the work. All of the
planned replacement telephone equipment had been installed or was on schedule to be installed
at Embassies Bangkok, Brussels, and Vienna, and no significant problems or delays had been
encountered.

        OIG concluded that the project’s objectives and expected outcomes from the
Department’s Recovery Act External Program Plan had been substantially achieved or were in
the process of being achieved. For example, according to the plan, one of the project’s
objectives was to replace the “oldest equipment at diplomatic facilities with new telephone
systems,” and OIG determined that the systems at Embassies Brussels, Vienna, and Bangkok
were among the oldest systems. Specifically, the last telephone system for Brussels was installed
in 1994, Vienna in 1995, and Bangkok in 1996. Additionally, OIG determined that one of the
project’s objectives, transparency, was met by including relevant information on the Web site
Recovery.gov and that the project’s accountability objective was met by following the
Department’s eGovernance review process for monitoring delivery schedules, costs, and quality.




                                               3

                                       UNCLASSIFIED
                                               UNCLASSIFIED



Funds Need To Be Put To Better Use in Respect to Shipping
        Based on information provided by IRM’s Foreign Post Telephone (FPT) Branch, OIG
determined that up to 83 percent of all telephone system replacement materials for the six
embassies receiving new telephone system installation equipment during FY 2010 could be
shipped at a less expensive cost by commercial means, which would be in compliance with the
Department’s Nonsecure Telephone and Transit Security standards stated in the Foreign Affairs
Handbook.3 During OIG’s audit, all the equipment necessary to accomplish telephone system
replacements at overseas posts was required by DS to be shipped by Diplomatic Courier
Service.4 The shipments of the telephone system equipment were typically large; weighed up to
60,000 pounds; and included such low-technology materials as bulk cabling, various metal
fastenings and fittings, and rolls of electrical tape.

        An IRM/FPT official stated, in a January 29, 2010, email to a DS official that “[t]he
current . . . Nonsecure Telephone Standard was developed in part to clarify shipping
requirements and avoid costly Diplomatic Courier shipments to the extent possible.” However,
in a November 23, 2010, email, the same official stated that “the controversy over shipping
telephone equipment stems largely from the fact that the Nonsecure Telephone Standard . . . is
misunderstood with respect to intent and application” and that it is necessary to “look at each of
the 800+ items in the . . . list of materials . . . , determine where in the mission it will be used,
and what it will be used for in order to apply what is clearly the intent of the [Department Transit
Security] standard.” For example, according to the email, parts for a telephone system to be
installed in a classified area of an embassy had to be shipped by Diplomatic Courier but other
parts could be shipped at less expensive cost by commercial means.

        To simplify the process, FPT officials developed a shipping matrix that the telephone
system installation contractor could use in sorting and packing crates for both Diplomatic
Courier and commercial shipments. In November 2010, in an exercise requested by IRM/FPT,
the telephone system installation contractor used the shipping matrix and sorted the materials for
upcoming scheduled projects with minimal effort.

         Using IRM data, OIG estimated that for the six posts receiving new telephone system
installation equipment during FY 2010, $651,124 could have been saved by dividing the
equipment into those items that were required for security reasons to be shipped by Diplomatic
Courier and those items that could have been shipped at less expensive cost by commercial
means. Specifically, and as shown in Table 2, between 62 and 83 percent of the total weight of
all telephone installation items could have been shipped commercially, and the overall shipping
costs could have been reduced by between 45 and 56 percent. OIG considers the $651,124 in
annual estimated savings as funds that could be put to better use.



3
  12 FAH-6 H-651.5-3, “Procurement, Shipping, and Storage of Nonsecure Telephone Equipment,” and 12 FAH-6

H-312.15, “Construction Materials and Transit Security.”

4
   Diplomatic Courier Service provides “secure and expeditious delivery of classified, sensitive, and other approved

material between U.S. diplomatic missions and the Department of State.” (Source: Diplopedia, 

<http://diplopedia.state.gov/index.php?title=Diplomatic_Courier_Service>, accessed on April 14, 2011.) 

                                                          4

                                               UNCLASSIFIED
                                              UNCLASSIFIED


Table 2. Estimated Shipping Cost Savings for FY 2010 for Telephone System Installation
Equipment at Six Diplomatic Posts
                  Cost Comparison of All-Diplomatic Courier vs. Mixed Shipments*
                                          Estimated
                                           Cost For       Estimated
              Cost For                    Materials         Cost                        Cost         Percent of
              Shipping     Percent of      Required     for Materials                 Savings:        Savings:
                All       Weight That       To Be        That Could       Total        Mixed           Mixed
             Materials     Could Be        Shipped       Be Shipped     Estimated    Shipment       Shipment vs.
                 By       Shipped by          by              by         Cost for      vs. All          All
             Diplomatic   Commercial      Diplomatic    Commercial       Mixed       Diplomatic      Diplomatic
   Post        Courier      Means          Courier         Means        Shipment      Courier         Courier
 Beirut       $233,970         83            $38,970         $66,646     $105,616      $128,354          45
 Bogota       $302,560         62          $115,545          $43,773     $159,318      $143,242          53
 Karachi       $56,105         74            $14,605         $16,647      $31,252       $24,853          56
 Brussels     $185,315         65            $64,860         $25,300      $90,160       $95,155          49
 Bangkok      $309,060         65          $108,170          $49,532     $157,702      $151,358          51
 Vienna       $226,070         65            $79,125         $38,783     $117,908      $108,162          52
                                         Total Estimated Savings                      $651,124
Source: OIG analysis of IRM/FPT data. 

*A “mixed shipment” is the sum of the costs for materials required to be shipped by diplomatic pouch because of 

security considerations plus the remaining items that can be shipped by commercial means. 


          Recommendation 1. OIG recommends that the Bureau of Information Resource
          Management and the Bureau of Diplomatic Security work with the Bureau of
          Administration, Office of Logistics Management, to find the most cost-effective
          commercial means of shipping unclassified or nonsensitive telephone equipment.

          Management Responses: In their responses, IRM and the A Bureau agreed with
          the recommendation but DS did not. Specifically, DS stated that it “does not concur with
          allowing a commercial means to ship replacement telephone systems, vice a diplomatic
          pouch.” DS further stated, “That is not a prudent security measure for protecting SBU
          [Sensitive But Unclassified] phone systems that may end up in a classified processing
          area.”

          OIG Reply: Because one of the three action offices did not concur with the
          recommendation, the recommendation is unresolved. OIG’s intent in making the
          recommendation was to segregate those items that would be going into a classified area
          and require shipment via the diplomatic pouch from all others that do not require special
          security transportation and handling procedures, such as heavy cabling spools.

          This recommendation can be closed when OIG reviews and accepts documentation from
          IRM regarding its plan for shipping unclassified or nonsensitive telephone equipment by
          the most cost-effective commercial means.




                                                        5

                                              UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                      Appendix A

                                  Scope and Methodology
        The purpose of this audit was to determine whether the Department of State’s
(Department) project for replacing telephone systems at three diplomatic posts—Embassies
Bangkok (Thailand), Brussels (Belgium), and Vienna (Austria)—met the project’s planned
objectives and complied with the requirements of the American Recovery and Reinvestment Act
of 2009 (Recovery Act) while ensuring that Recovery Act funds were used only for their
intended purposes. This audit is one of two audits being conducted by the Office of Inspector
General (OIG) to examine Recovery Act-funded investments in the Department’s information
technology (IT) platform. The other audit, which pertains to $13 million expended to replace
aging desktop workstations at various diplomatic posts, has a similar objective. Additionally, an
independent public accountant (IPA) under contract to OIG is auditing other Recovery Act
projects under the Department’s Capital Investment Fund, including projects to construct data
centers and improve cyber security.

        OIG conducted this audit from May 2010 through March 2011 in accordance with
generally accepted government auditing standards. Those standards require that the auditors
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for its findings and conclusions based on its audit objectives. OIG believes that the
evidence obtained provides a reasonable basis for the findings and conclusions based on the audit
objective.

        Work was performed in the Washington, DC, area with officials from the Bureaus of
Administration, Information Resource Management (IRM), and Diplomatic Security. OIG
interviewed Bureau of Administration officials to learn the specifics of the contracting process
used to replace the telephone systems. OIG also interviewed IRM officials and reviewed
supporting documentation related to Recovery Act obligations and expenditures for the new
telephone systems.

        OIG audit staff performed work at Embassies Bangkok, Brussels, and Vienna, where
telephone systems were scheduled to be replaced. OIG observed installation work in progress,
verified the receipt of selected items from a list of materials procured using Recovery Act funds,
and interviewed post officials about issues pertaining to the replacement project.

        The contracting officer’s representative for the telephone systems installation project
accompanied auditors at the three posts to explain technical aspects of the project, answer the
audit team’s questions, and assist in locating items procured and shipped to the posts as per the
installation contract.

        During the audit, OIG joined with the IPA under contract to OIG for audits of other
Recovery Act-funded projects concerning IT. The IPA performed audit procedures to determine
the following:


                                                 6

                                        UNCLASSIFIED
                                       UNCLASSIFIED


      Funds were awarded and distributed in a prompt, fair, and reasonable manner.
      Recipients and uses of all funds were transparent to the public, and the public benefits of
       the funds were reported clearly and accurately and in a timely manner.
      Responsible project officials had taken actions to identify and mitigate instances of fraud,
       waste, error, and abuse.

       To ensure the accuracy and completeness of the project’s plans and financial records, the
IPA firm performed the following actions:

   	 Reconciled information on financial records within the Department’s Global Financial
      Management System (GFMS) with information on weekly financial activity reports as of
      the end of FY 2010 and additional interim dates.
    Analyzed year-end obligation totals for the IT platform operations portion of the Capital
      Investment Fund.
    Verified that Recovery Act funds for each project were tracked and reported separately
      from other funds.

Work Related to Internal Controls

        To assess the adequacy of internal controls related to the weekly financial activity
reports, the accountability of Recovery Act funds, and the monitoring of projects to avoid cost
overruns and delays, the IPA performed the following actions:

     Obtained an understanding of the processes and procedures.
     Reviewed source documentation and other types of evidence to confirm the adequacy of
      stated controls.
     Compared weekly report balances with details and reconciled differences in the
      Department’s GFMS.
     Reviewed internal reports related to the compilation of balances and amounts for
      reporting to the public.
     Determined that separate Treasury Account Symbols were established for Recovery Act
      programs.
     Verified proper approval over transactions involving Recovery Act funds.

Tests for Data Reliability

       To assess data reliability, the IPA selected a testing sample and performed the following
procedures:

   	 Reviewed contract files to determine whether contracts were awarded by the General
      Services Administration at fixed cost.
   	 Tested to determine whether particular contracts were disclosed and listed within a
      separate section on the Web site Recovery.gov if such contracts were determined to have
      been awarded noncompetitively or not at fixed price.


                                                7

                                       UNCLASSIFIED
                                     UNCLASSIFIED



   	 Compared weekly financial activity report balances with underlying schedules and
      GFMS details.

Use of Computer-Processed Data

       The IPA used GFMS details and reconciling schedules to compare the balances reported
in GFMS with information contained in the Recovery Act weekly financial activity reports
posted by the Department. The IPA determined that the GFMS data and schedules were reliable
based on a selected sample and testing of internal controls involving the weekly reporting
process.




                                             8

                                     UNCLASSIFIED
                                      UNCLASSIFIED



                                                                                                  Appendix B



                                                              United States Dppartment of State

                                                              f¥hS/rillgfOIl,   D. C.   20520



                                                            July 20, 2011




UNCLASSIFIED
MEMORANDUM

TO:             OIG - Howard W. Geisel

FROM:           IRMlBMP/SPO - DeAnne       Bryant~
SUBJECT:        Draft OIG Report on the Audit of the Project to Replace Diplomatic Facility
                Telephone Systems at the Department of State with Funds Provided by the
                American Recovery and Reinvestment Act


Thank you for the opportunity to provide a response to the subject report, Audit oj the Project To
Replace Diplomatic Facility Telephone Systems at the Department of State With Funds Provided
by the American Recovery and Reinvestment Act (AUDICG-11-XX July 2011). This
memorandum is to infonn you that LRM agrees with Recommendation 1 in the subject report.


Recommendation 1: DIG recommends that the Bureau of Infonnation Resource Management
and Bureau of Diplomatic Security work with the Bureau of Administration, Office of Logistics
Management, 1O find the moS( cost effective commercial means of shipping unclassified or 11011-
sensitive telephone equipment

      IRM Response (0712011): lRM agrees with the DIG recommendation in this area.




ec:               (b) (6)
                            (b) (6)
             (b) (6)
                (b) (6)
                 (b) (6)

                                       UNCLASSIFIED




                                                 9


                                      UNCLASSIFIED
                                UNCLASSIFIED



                                                                              Appendix C




UNCLASSIFIED

MEMORANDUM FOR                   OIG - Mark P. Taylor

FROM:                            DS/MGT/PPJ) - James E_Weston

SUBJECT :                        DS Response to Advance Draft Audit Report:

  Attached is U1t~ Bureau or Diplomatic Security's initial respon::>e to
Recommendation I orthe subjecl report.

Attachment: OS Response to Recommendation I




                                   UNCLASSIFIED




                                         10 


                                UNCLASSIFIED
                                      UNCLASSIFIED





DS Comments to Advance copy ofOIC Draft Audit Report
                      AUD/CC-ll-XX July 2011

    Audit Report on Audit of the Project to Replace Diplomatic Faci lity
 Telephone Systems lit the Depllrtment ofStli te With Funds Provided by the
                American Recove ry and Reinvestm ent Act

Recflmml!lultll;(J/1 I. OIG recommends that /he Bureau of Information Resource Management. in
coordinalion wUh the Bureau of Dip/omalic Sealril}', eS/ablish and i1l1plell1em procedures /0
ship unclassified or nonsensitive telephone equipment by commercia/means.

       DS Comm ent: DSfSUIS does not concur with allowing a commercial means to ship
       replacement telephone ~yste m s, vicc 11 dipl omat ic pouch. That is not 11 prudent ~cc uri t y
       measure for protecti ng SBU phone systems that may end up in a classified processi ng
       area.




                                          UNC LASSIFIED




                                                  11 


                                      UNCLASSIFIED

                          UNCLASSIFIED





DmO",t      DSlMGTIPPD _ _
            07122/20 11

Cleared :                                  -7126/ 11 - ok

            DS/SI -
            DSiC




                           UNCLASS IFIED




                                12 


                          UNCLASSIFIED

                           UNCLASSIFIED



                                                                              Appendix D




                                               United States Department of State
                                              Washington , D. C. 20520



                                               JULY   22, 2011

MEMORANDUM

TO:
             OIG/AUD -   M~;;"d~""'::----
FROM:        NLM/OPS - si8'eri G. Hartman

SUBJECT: Draft Compliance Review of Audit of the Project To Replace
Diplomatic Facility Telephone Systems at the Department of State With
Funds Provided by the American Recovety and Reinvestment Act,
AUD/CG- II -XX - July 2011

Below is the Office of Logistics ~~~~~t' response to recommendation
I of the draft subject report.           NLMlOPS/SLD is the point
of contact and can be reached at

Recommendation 1: OIG recommends that the Bureau ofInformation
Resource Management, in coordination with the Bureau of Diplomatic
Security, establish and implement procedures to ship unclassified or
nonsensitive telephone equipment by commercial means.

AlLMiOPS Response: NLM requests the OIG designate NLM as one of
the "Action" offices to ensure that all the transportation options are
identified and considered, and replace the above recommendation with the
following text:

Recommendation 1. OIG recommends that the Bureau ojInJormation
Resource Management and Bureau ojDiplomatic Security work with the
Bureau ojAdministration, Office oj Logistics Management, to find the most
cost effective commercial means of shipping unclassified or nonsensitive
telephone equipment.

NLM concurs with the new text recommended herein.




                                    13 


                           UNCLASSIFIED
                                   UNCLASSIFIED




Major Contributors to This Report
Richard A. Astor, Audit Director
Contracts and Grants Division
Office of Audits

Mark P. Taylor, Audit Manager
Contracts and Grants Division
Office of Audits

Cindy A. Nelson, Senior Auditor
Contracts and Grants Division
Office of Audits




                                        14

                                   UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320 

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
